Supreme Court, U.S.
FLED

WAIVER

NOV 0 8 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Zachery Pittman

19-466
Herman Harris

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[] Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the!United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
11/8/2019

Date.

(Type or print) Name

Rafael Reyneri
0 Mr. 0 Ms.

Firm

Covington & Burling LLP

Address

One CityCenter, 850 Tenth Street, NW

City & State
Phone

❑ Mrs. 0 Miss

Washington, DC

202 662 5787

Zip
Email

20001-4956

rreyneri@cov.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Donald Brandon Christian

RECEIVED
NOV - 8 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

